   July 5, 2002




Acquisition

Acquisition of the Evolved
SEASPARROW Missile
(D-2002-126)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
APB                   Acquisition Program Baseline
C4I                   Command, Control, Communications, Computers, and Intelligence
ESSM                  Evolved SEASPARROW Missile
ORD                   Operational Requirements Document
         Office of the Inspector General of the Department of Defense
Report No. D-2002-126                                                    July 5, 2002
  (Project No. D2001AE-0153)

             Acquisition of the Evolved SEASPARROW Missile

                                Executive Summary

Who Should Read This Report and Why? This report should be read by all who are
interested in the acquisition of the Navy’s Evolved SEASPARROW Missile. This report
addresses the need for the Navy to prepare and update key program documentation for
the Evolved SEASPARROW Missile that is needed to effectively manage the program
before the full-rate production decision.

Background. The Evolved SEASPARROW Missile, a Navy Acquisition Category II
program, is an improved version of the RIM-7P SEASPARROW missile that will
intercept high-speed maneuvering, anti-ship cruise missiles. This improved version
involves the development of a new rocket motor and associated tail control section and
modifications of the missile guidance, ordinance, and software. Ten participating
governments are cooperatively developing the program that will cost about $3 billion.
The United States’ share of the program costs is $255.3 million for research,
development, test, and evaluation and $1.6 billion for procurement.

Results. Overall, the Evolved SEASPARROW Missile program warrants management
attention in the area of program documentation, including the acquisition program
baseline agreement, operational requirements document, and the Command, Control,
Communications, Computer, and Intelligence Support Plan, before the full-rate
production decision. As a result, the Evolved SEASPARROW Missile Program Office
does not have all the necessary acquisition documents needed to effectively manage
program cost and performance, and acquisition decision makers cannot make fully
informed investment decisions. Further, the program office will not be able to accurately
report the liability for demilitarization and disposal costs for the missiles in Navy
financial statements. (See the Finding section of the report for the detailed
recommendations.)

Management Comments. The Deputy Assistant Secretary of the Navy (Planning,
Programming and Resources) concurred and was implementing appropriate corrective
actions in response to the finding and recommendations. Accordingly, no additional
comments are required. We commend the Navy staff on taking appropriate corrective
actions.
Table of Contents
Executive Summary                         i
Introduction
     Background                           1
     Objectives                           1

Finding
     Program Documentation               3

Appendixes
     A. Scope and Methodology             9
          Scope and Methodology           9
          Management Control Program     10
          Prior Coverage                 10
     B. International Consortium         11
     C. Definitions of Technical Terms   13
     D. Report Distribution              15

Management Comments
     Department of the Navy              17
Evolved SEASPARROW Missile launched from a self-defense test ship, Fall 2001
Source: North Atlantic Treaty Organization SEASPARROW Program Office
Background
     The Evolved SEASPARROW Missile (ESSM) is a medium-range missile
     intended to provide self-protection for surface ships. The ESSM is an improved
     version of the RIM-7P SEASPARROW missile that will intercept high-speed
     maneuvering, anti-ship cruise missiles. The improved version involves the
     development of a new rocket motor and associated tail control section and
     modifications of the missile guidance, ordnance, and software. Operationally, the
     U. S. Navy will deploy the ESSM on both Aegis and non-Aegis class ships.
     Further, it can be fired from most existing North Atlantic Treaty Organization
     SEASPARROW surface missile systems.

     Ten participating governments are cooperatively developing the program that will
     cost about $3 billion. The United States’ share of the program costs is
     $255.3 million for research, development, test, and evaluation and $1.6 billion for
     procurement. The Navy Acquisition Executive is the milestone decision authority
     for this major system, an Acquisition Category II program. The Navy Acquisition
     Executive gave approval to the ESSM Program to enter the engineering and
     manufacturing development phase of the acquisition process and low-rate initial
     production on November 30, 1994, and on April 6, 2001, respectively. The
     objective of the low-rate initial production phase is for participating governments
     to cooperatively produce the ESSM. Appendix B provides more detail on the
     international consortium developing the ESSM. Appendix C contains definitions
     of technical terms.

Objectives
     The audit objective was to evaluate the overall management of the ESSM
     Program. Because the program was in the engineering and manufacturing
     development phase, we determined whether management was cost-effectively
     developing and readying the system for the full-rate production phase of the
     acquisition process. In addition, we evaluated the management control program
     as it related to our audit objective. See Appendix A for a discussion of the audit
     scope and methodology, the review of the management control program, and prior
     coverage related to the audit objectives.

ESSM Program Generally Well Managed
     Overall, the program office had taken the following necessary actions to develop
     and ready the program for full-rate production. Specifically,

        • The program office established a risk management plan for the ESSM that
             describes the processes, tools, and responsibilities that each industrial
             partner, integrated product team, and working group of the ESSM team
             must follow to evaluate the product and the process risks that affect the
             program’s cost, schedule, and technical success. The risk management
             plan rates risks in the categories of high, medium, or low. A high rating
             indicates a risk issue that is likely to seriously disrupt the schedule,
                                          1
       increase cost, or degrade performance, even with special contractor
       emphasis and close government monitoring. Medium risk issues can
       potentially disrupt a schedule, increase cost, or degrade performance.
       Low risk issues have little potential to disrupt schedule, increase cost, or
       disrupt performance. As of November 2001, 3 issues were rated high risk,
       5 were rated medium risk, and 16 were rated as low risk.

   •   In January 2000, the program office published a Master Acquisition
       Program Plan containing a comprehensive guide of the ESSM logistics
       program. The Master Acquisition Program Plan addressed such items as
       ESSM maintenance and supportability. On March 30, 2001, the Program
       Executive Officer for Expeditionary Warfare certified the ESSM as
       logistically ready for low-rate and full-rate production.

   •   The program office routinely updated the test and evaluation master plan
       as conditions warranted. The initial plan, approved on January 26, 1995,
       required extensive ESSM testing using an MK29 launcher on a Spruance-
       class destroyer. Because of the cost to upgrade the MK29 launchers to
       support the ESSM and the Navy’s decision to decommission the
       Spruance-class destroyer, the program manager updated the test and
       evaluation master plan in November 1998 to provide more testing using an
       MK41 launcher. As of March 2002, in preparation for the full-rate
       production decision scheduled for February 2003, the ESSM Program
       Manager was updating the document to show the results of developmental
       tests.

Further, we determined that the program office had complied with DoD and Navy
regulations in the areas of contract management, requirements definition,
logistics, and systems engineering. However, one area warrants management
attention before the program enters into full-rate production. A discussion of the
associated finding follows.




                                    2
           Program Documentation
           The ESSM Program Office and the Navy did not update program
           documents needed to effectively manage the program. Specifically, the
           program manager did not update the acquisition program baseline
           agreement to show current acquisition quantities, develop a Command,
           Control, Communications, Computer, and Intelligence (C4I) Support Plan
           to document required interfaces with other systems, and include missile
           demilitarization and disposal costs in the life-cycle cost estimate. Those
           documents were not prepared as required because the program manager:

               •   was waiting for production cost information from a negotiated
                   production contract to show the decrease in procurement quantities
                   from 4,616 to 2,076 missiles and the increased costs,

               •   did not believe that the requirement for a C4I Support Plan applied
                   to the ESSM Program, and

               •   did not expect the Navy to have any missiles in the inventory at the
                   end of their 10-year service-life.

           Also, the Deputy Chief of Naval Operations (Resources, Warfare,
           Requirements, and Assessments) (the user) did not update the operational
           requirements document (ORD) to include interoperability as a key
           performance parameter because he did not believe it was necessary for the
           ESSM Program. As a result, the ESSM Program Office did not have all
           the necessary acquisition requirements to effectively manage program cost
           and performance, and acquisition decision makers cannot make fully
           informed investment decisions. Further, the program office will not be
           able to accurately report the liability for demilitarization and disposal costs
           for the missiles in Navy financial statements.

Program Documentation Requirements
    DoD Policy. DoD Instruction 5000.2, “Operation of the Defense Acquisition
    System,” January 4, 2001, and DoD Regulation 5000.2-R, “Mandatory
    Procedures for Major Defense Acquisition (MDAPs) and Major Automated
    Information System (MAIS) Acquisition Programs,” June 10, 2001, and DoD
    Manual 5000.4-M, “Department of Defense Cost Analysis Guidance and
    Procedures,” December 11, 1992, establish policies and procedures for managing
    acquisition programs. The DoD 5000 documents state that program managers for
    defense acquisitions are to rely on and generate program documents needed for
    program execution and decision making. Program documents include the
    approved program baseline, the C4I support plan, the life-cycle cost estimate, and
    the operational requirements document. These interrelated documents help the
    program manager provide acquisition decision makers with the information
    needed to oversee and make important program decisions.




                                         3
    Joint Staff Policy. Chairman of the Joint Chiefs of Staff Instruction 3170.01B,
    “Requirements Generation System,” April 15, 2001, and Chairman of the Joint
    Chiefs of Staff Instruction 6212.01B; “Interoperability and Supportability of
    National Security Systems, and Information Technology Systems,” May 8, 2000,
    require the program manager to address compatibility, interoperability, and
    integration key goals for all acquisition programs and to achieve those goals
    throughout the acquisition life cycle for all acquisition programs. Further, the
    policy requires the Joint Interoperability Test Command to test and certify all C4I
    systems having joint interoperability requirements before the production
    milestone decision.

    Navy Policy. Secretary of the Navy Instruction 5000.2B, “Implementation of
    Mandatory Procedures for Major and Non-Major Defense Acquisition Programs
    and Major and Non-Major Information Technology Acquisition Programs,”
    December 6, 1996, requires that all Department of the Navy programs implement
    the requirements of DoD Regulation 5000.2-R. The Assistant Secretary of the
    Navy (Research, Development, and Acquisition), in a memorandum on
    “Implementation of Total Ownership Cost (TOC) Baselines in the Department of
    the Navy,” May 5, 1998, also directed that each Navy acquisition category
    program revise its current approved acquisition program baseline and establish a
    total ownership cost objective and threshold as part of a long-term, cost-reduction
    initiative.

    Federal Financial Accounting Standards Guidance. The Statement of Federal
    Financial Accounting Standards No. 6, “Accounting for Property, Plant, and
    Equipment,” November 30, 1995, requires that Federal agencies, beginning in
    FY 1998, recognize a liability in agency financial statements for cleanup costs
    associated with Federal property, plant, and equipment, including weapons
    systems, when the agency places the property, plant, and equipment into service.
    Statement of Federal Financial Accounting Standards No. 6 defines cleanup costs
    as those costs to remove, contain, or dispose of hazardous waste, or any
    combination of the three, from material or property that is permanently or
    temporarily shut down.

Status of Program Documents
    Acquisition Program Baseline. DoD Regulation 5000.2-R states that every
    acquisition program shall establish an acquisition program baseline (APB)
    beginning at program initiation. The program manager prepares the APB in
    coordination with the user to document the most important cost, schedule, and
    performance parameters (both objectives and thresholds) for the program. The
    program manager bases the APB on user performance requirements, schedule
    requirements, and an estimate of total program cost. In the event of program
    restructuring or an unrecoverable program deviation, Regulation 5000.2-R
    requires the program manager, in coordination with the user, to obtain approval of
    a revised program baseline.

    The Assistant Secretary of the Navy (Research, Development, and Acquisition)
    approved the initial APB on December 19, 1994. However, the ESSM Program
    Manager did not update the APB to show the current program quantity and unit


                                         4
cost requirements as required when the program was restructured. Because of
technical difficulties experienced in such areas as the reliability of the control
actuator assembly, interface of Aegis combat system software, and the design of
the software for the digital auto pilot, the program manager revised, and the
Assistant Secretary of the Navy approved, updated APBs on June 22, 1998,
May 25, 1999, and June 13, 2000. In the revised APBs, the program manager
changed the program schedule but did not adjust program cost data to show
increased unit costs and reductions in procurement quantities.

Specifically, the initial and revised APBs showed that the United States planned
to purchase 4,616 missiles at a threshold cost of $1.6 billion. However, the
program manager did not reduce the number of missiles to be purchased,
beginning with the June 1998 APB. In June 1998, the Assistant Secretary of the
Navy approved a revised acquisition strategy indicating that the United States
planned to purchase only 2,076 missiles, a decrease of 55 percent, in the planned
missile procurement. However, the program office officials did not revise the
APB to show that they had reduced the total production cost estimate by
31 percent, from $1.6 billion to $1.1 billion. Based on the missile quantity
reduction and the revised total production cost estimate, the unit cost per missile
increased by 58 percent, from $344,000 to $543,000. The program manager
stated that missile quantity and unit cost information was not changed in the APB
because he was waiting for updated production cost information that would occur
when a production contract was negotiated. Further, the program office did not
have documentation to show that acquisition decision makers were made aware of
the 58-percent increase in unit costs. As a result, decision makers did not have
unit cost information available to evaluate whether the ESSM Program remained
cost effective and should be continued.

C4I Support Plan. DoD Regulation 5000.2-R requires that DoD Components
develop C4I support plans for programs early in the acquisition process for all
acquisition categories when they connect in any way to the communications and
information infrastructure. In the C4I support plan, DoD Instruction 5000.2
requires each program manager to address system interoperability. The
Instruction defines interoperability as the ability of systems, units, or forces to
provide data, information, materiel, and services and accept the same from other
systems, units, or forces, and to use the data, information, materiel, and services
so exchanged to enable them to operate effectively together. The Instruction also
states that the outcome of systems acquisition is a system that is interoperable
with other systems (United States, coalition, and allied systems, as specified in the
operational requirements document). Further, acquisition decision makers are
required to review the C4I support plan at each milestone and at decision reviews,
as appropriate, and whenever support requirements change.

The ESSM Program Manager did not prepare a C4I support plan as required and
may not have identified all the interoperability and information technology issues
affecting the program that should have been addressed through operational
testing. The program manager did not believe that the requirement for a C4I
support plan applied to the ESSM Program because the ESSM did not interface
with any other weapon system or communicate with any device other than its host
fire control system. This said, the ESSM must be interoperable with the host fire
control system. Specifically, the information transmitted from the fire control


                                      5
system provides midcourse guidance control over the missile. The commands
order the missile to accelerate in the crossrange, downrange, or vertical axes,
respectively. Also, the ESSM transmits information back to the host fire control
system indicating whether it has detected any error in the commands. The
program office believed that it would not be cost-effective to prepare a C4I
support plan because operational test plans were already approved and being used
to determine the operational effectiveness of the ESSM; however, the program
office should have developed the C4I support plan early in the acquisition process
to obtain the benefits of preparing the C4I support plan.

Life-Cycle Cost Estimates. DoD Regulation 5000.2-R requires that the life-
cycle cost estimate be comprehensive and identify all cost elements, including
operation and support costs. In addition, DoD Manual 5000.4-M requires that
program offices identify the cost of any hazardous, toxic, or radiological materials
that may be encountered or generated during system development, manufacture,
transportation, storage, operation, and disposal. Furthermore, the guidance states
that program offices should include the costs of demilitarization, detoxification, or
long-term waste storage in the cost estimates.

        Cost Estimate. The life-cycle cost estimate that the program office
prepared on November 5, 1994, did not include costs for demilitarization and
disposal of the ESSM at the end of its useful life. In the life-cycle cost document,
the program office stated that demilitarization and disposal costs would be
determined later; however, as of March 2002, the program office still had not
estimated those costs. When queried, the program manager stated that
demilitarization and disposal costs were not developed because the program office
did not expect the Navy to have any missiles in the inventory at the end of their
10-year service life and, accordingly, the program office did not give priority to
estimating those costs.

        Demilitarization and Disposal Plan. The contractor developed
demilitarization and disposal plans for the ESSM Program Office in 2001. The
plans outlined procedures for disassembling, demilitarizing, and disposing of
various sections of the ESSM. However, the contractor was not required to
specify in the plans the costs to demilitarize and dispose of the ESSM at the end
of its 10-year service life. As a result, the ESSM Program Office missed an
opportunity to identify the estimated costs associated with disassembling,
demilitarizing, and disposing of the missile to satisfy life-cycle cost requirements
in DoD Manual 5000.4-M.

       Navy Financial Statements. Without a life-cycle cost estimate that
includes demilitarization and disposal costs, the ESSM Program Office cannot
accurately report the liability for the ESSM demilitarization and disposal costs in
future Navy financial statements. Although demilitarization and disposal costs
may not be a significant percentage of system life-cycle costs, they should not be
ignored; those costs for Navy weapon systems may represent a material value on
Navy and DoD-wide consolidated financial statements. Those costs are also
needed to meet the requirements of Statement of Federal Financial Accounting
Standards No. 6.




                                      6
    Operational Requirements Document. DoD Instruction 5000.2 and Chairman
    of the Joint Chiefs of Staff Instruction 6212.01B mandate that the user establish
    interoperability as a key performance parameter in all operational requirements
    documents. The overall objective of this policy decision is to develop, acquire,
    and deploy national security systems and information technology systems that:

       •   meet the essential operational needs of U.S. Forces;

       •   are interoperable with existing and proposed national security systems and
           information technology systems;

       •   are supportable over the existing and planned global information grid; and

       •   are interoperable with the systems of allies and coalition partners.

    Also, Joint Requirements Oversight Council Memorandum 132-99, “Policy for
    Updating Operational Requirements Documents (ORDs) to Incorporate
    Interoperability Key Performance Parameter (KPP) and Cost,” November 16,
    1999, requires that all ORDs supporting a full-rate production decision after
    March 1, 2001, be updated to include an interoperability key performance
    parameter.

    On November 28, 1994, the Deputy Chief of Naval Operations (Resources,
    Warfare Requirements, and Assessments) approved the ORD that required the
    ESSM to be interoperable with all current North Atlantic Treaty Organization
    SEASPARROW Missile Systems’ fire control systems. To comply with the Joint
    Requirements Oversight Council Memorandum of November 16, 1999, the Navy
    needs to update the ORD to designate interoperability as a key performance
    parameter.

    Because the Navy did not update the ORD by March 1, 2001, as required, the
    Joint Staff’s Director for Command, Control, Communications and Computer
    Systems (J-6) had not reviewed the ORD and coordinated it with the U.S. Joint
    Forces Command, the Military Departments, Commanders of the combatant
    commands, and Defense agencies. Without such coordination, the J-6 had not
    obtained critical warfighter perspectives on joint operational concepts and joint
    interface requirements with other systems. The Office of the Deputy Chief of
    Naval Operations (Resources, Warfare, Requirements, and Assessments) did not
    update the ORD to include interoperability as a key performance parameter
    because it believed that the ESSM must be compatible, but not interoperable, with
    the fire control system.

Conclusion
    Documentation is the primary means for providing the milestone decision
    authority, as well as other key managers, with information needed for decision
    making. Without accurate and updated program documents, such as the APB, the
    C4I support plan, the life-cycle cost estimate, and the ORD, the program office
    cannot provide assurance to acquisition decision makers that performance and
    cost thresholds are being achieved and that the program is affordable. Without


                                         7
    this information, the ESSM Program Office did not have all the necessary
    acquisition requirements to effectively manage program cost and performance,
    and acquisition decision makers cannot make fully informed investment
    decisions.

Recommendations and Management Comments
    1. We recommend that the Program Manager for the Evolved
    SEASPARROW Missile program:

           a. Update the acquisition program baseline agreement to show
    correct acquisition quantities and unit costs.

           b. Include a cost element in the missile life-cycle cost estimate to
    account for demilitarization and disposal costs of the missiles. Those costs
    should be included in future total ownership cost submissions.

    Navy Comments. The Deputy Assistant Secretary of the Navy (Planning,
    Programming, and Resources) concurred, stating that the acquisition program
    baseline was modified to include both cost and schedule changes and is being
    staffed for completion in July 2002. The Deputy Assistant Secretary of the Navy
    did not indicate the dates when actions to include a cost element in the missile
    life-cycle cost estimate to account for demilitarization and disposal costs of the
    missile would be completed.

    2. We recommend that the Deputy Chief of Naval Operations (Warfare,
    Requirements, and Programs) revise the operational requirements document
    to designate interoperability as a key performance parameter. In
    designating interoperability as a key performance parameter, a C4I support
    plan would also be required.

    Navy Comments. The Deputy Assistant Secretary of the Navy (Planning,
    Programming, and Resources) concurred, stating that the Deputy Chief of Naval
    Operations (Warfare, Requirements, and Programs) and the Program Manager
    began a review of the existing operational requirements document in September
    2001 and were currently staffing the revision. The Navy plans to complete the
    revised operational requirements document by October 30, 2002. The revised
    operational requirements document will include interoperability as a key
    performance parameter from which the Program Manager will prepare a C4I
    Support Plan.




                                         8
Appendix A. Scope and Methodology

Scope
    We reviewed documentation dated from April 1992 through March 2002. We
    used criteria and references cited in DoD Instruction 5000.2, “Operation of the
    Defense Acquisition System,” January 4, 2001, and DoD Regulation 5000.2-R
    “Mandatory Procedures for Major Defense Acquisition Programs (MDAPs) and
    Major Automated Information System (MAIS) Acquisition Program,” June 10,
    2001, to perform the audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the DoD Weapon Systems Acquisition high-risk area.

Methodology
    To accomplish the audit objective, we took the following steps:

        •   determined whether the user adequately defined the system requirements;

        •   determined whether the program office developed and effectively
            implemented an acquisition strategy, an acquisition plan, a risk
            management plan, a logistics plan, a test and evaluation plan, and a C4I
            support plan;

        •   evaluated the Defense Contract Management Agency’s involvement in
            monitoring the contractor’s earned value management process;

        •   discussed the content and administration of contract N00024-95-C-5400
            with the Defense Contract Management Agency;

        •   determined whether the program office had prepared a life-cycle cost
            estimate for the program; and

        •   reviewed management controls related to the audit objective.

    Audit Dates and Standards. We performed this audit from July 2001 through
    April 2002 in accordance with generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. We did not use technical assistance to perform this
    audit.




                                         9
    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD and contractor locations. Further details are
    available upon request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. In accordance
    with DoD Regulation 5000.2-R, June 10, 2001, acquisition managers are to use
    program cost, schedule, and performance parameters as control objectives to
    implement the requirements of DoD Directive 5010.38. Accordingly, we limited
    our review to management controls directly related to those elements of the
    ESSM program.

    Adequacy of Management Controls. We identified a material management
    control weakness as defined by DoD Instruction 5010.40. Management controls
    were not adequate for ensuring that the program manager and user updated
    program management documents as required. Recommendations 1. and 2., if
    implemented, will ensure adherence to regulatory requirements. We will provide
    a copy of the report to the senior official responsible for management controls in
    the Office of the Assistant Secretary of the Navy (Financial Management and
    Comptroller).

    Adequacy of Management Self-Evaluation. ESSM officials identified program
    documents as part of an assessable unit. However, in its evaluation, ESSM
    officials did not identify the specific material management control weaknesses
    identified by the audit. Although the ESSM evaluation addressed the existence of
    program documents, it did not update the documents in accordance with
    regulatory requirements.

Prior Coverage
    During the past 5 years, the General Accounting Office issued one report
    addressing the ESSM Program.
    Report No. NSIAD-00-149, “Defense Acquisitions: Comprehensive Strategy
    Needed to Improve Ship Cruise Missile Defense,” July 2000




                                        10
Appendix B. International Consortium
   In 1999, the North Atlantic Treaty Organization SEASPARROW Consortium
   (Australia, Belgium, Canada, Denmark, Germany, Greece, Italy, Netherlands,
   Norway, Portugal, Spain, Turkey, and the United States) signed an addendum to
   the memorandum of understanding for the cooperative support of the North
   Atlantic Treaty Organization SEASPARROW Surface Missile System concerning
   the cooperative engineering and manufacturing development of the Evolved
   SEASPARROW Missile. The engineering and manufacturing development phase
   of the ESSM Program is sponsored by 10 of the 13 participating governments.
   For conducting the engineering and manufacturing development phase of the
   ESSM Program, two classes of participants were established:

      •   Contributing Participants - Those governments who are sharing in the
          costs of the engineering and manufacturing development phase of the
          ESSM Program.

      •   Non-contributing Participants - Those who are not funding the ESSM
          engineering and manufacturing development phase (Belgium, Italy, and
          Portugal).

   The participants in the ESSM engineering and manufacturing development phase
   are to cooperatively design, develop, and test a derivative of the RIM-7P
   SEASPARROW Missile with improved kinematics and an upgraded ordnance
   package, and to ensure that the work undertaken will be divided among the
   participants, to the maximum extent possible, in proportion to their respective
   financial shares.

   Under the work-share agreement, participants are responsible for different
   components of the ESSM. Each contributing participant will contribute its
   equitable share of the costs of the ESSM engineering and manufacturing
   development phase. Development responsibilities of the 10 participating
   governments follow.




                                      11
  Work Share Summary for ESSM Engineering and Manufacturing Development

                                                                    Cost Share
  Participant                     Component                          Percent

Australia           Thrust vector control and aero surfaces           7.14
Canada              Control section                                   6.20
Denmark             Fairing, ballast, inertial management             2.10
                    unit/electronics/ integration
Germany             Warhead, digital auto pilot,                      7.84
                    warhead compatible telemeter
Greece              Umbilical, digital auto pilot,                    1.95
                    inertial management unit/electronic/
                    integration, warhead compatible telemeter
The Netherlands     Fuselage/power converter                          7.56
Norway              Components of the motor                          16.40
Spain               All-up-round integration                          5.42
Turkey              Warhead replacement flight termination            1.17
                    System
United States       System integration, all-up-round integration,    44.22
                    Guidance section, container and equipment,
                    S-Band transceiver, portions of the motor,
                    transition section

 Total                                                              100.00




                                      12
Appendix C. Definition of Technical Terms
   Acquisition Category. An acquisition category is an attribute of an acquisition
   program that determines the program level of review, decision authority, and
   applicable procedures. Weapon system acquisition categories consist of I, major
   defense acquisition programs; II, major systems; and III, all other acquisition
   programs. Acquisition Category I programs include two subcategories:
   Acquisition Category ID programs where the milestone decision authority is the
   Under Secretary Defense for Acquisition, Technology, and Logistics, and
   Acquisition Category IC programs where the milestone decision authority is the
   Component Acquisition Executive. The Component Acquisition Executive is the
   milestone decision authority for all Acquisition Category II programs.

   Acquisition Phase. An acquisition phase represents all the tasks and activities
   needed to bring a program to the next major milestone. Phases provide a logical
   means of progressively translating broadly stated mission needs into well-defined,
   system-specific requirements and, ultimately, into operationally effective,
   suitable, and survivable systems.

   Acquisition Program Baseline. An acquisition program baseline is a document
   that contains the most important cost, schedule, and performance parameters (both
   objectives and thresholds) for the program. It is approved by the Milestone
   Decision Authority, and signed by the program manager.

   Acquisition Strategy. An acquisition strategy is a business and technical
   management approach designed to achieve program objectives within the
   resource constraints imposed. It is the framework for planning, directing,
   contracting for, and managing a program. It provides a master schedule for
   research, development, test, production, fielding, modification, postproduction
   management, and other activities essential for program success. The acquisition
   strategy is the basis for formulating functional plans and strategies.

   Engineering and Manufacturing Development. Engineering and
   manufacturing development is the third phase of the acquisition process where the
   program office and its contractors fully develop, engineer, design, fabricate, test,
   and evaluate the systems and the principal items necessary for support.

   Full-Rate Production. Full-rate production is contracting for economic
   production quantities following stabilization of the system design and validation
   of the production process.

   Information Exchange Requirement. The requirement for information to be
   passed between and among forces, organizations, or administrative structures
   concerning ongoing activities.

   Key Performance Parameters. Those capabilities or characteristics so
   significant that failure to meet the threshold can be cause for the concept or
   system selected to be reevaluated or the program to be reassessed or terminated.



                                       13
Low-Rate Initial Production. Low-rate initial production is the production of a
system in limited quantities to provide articles for additional operational test and
evaluation, to establish an initial production base, and to permit an orderly
increase in the production rate that will lead to full-rate production after
successful completion of operational testing.

Milestone. A milestone is the point when a recommendation is made and
approval sought regarding starting or continuing an acquisition program.

Milestone Decision Authority. A milestone decision authority is the individual
designated in accordance with criteria established by the Under Secretary of
Defense for Acquisition, Technology, and Logistics to approve entry of an
acquisition program into the next phase.

Objectives. The performance value that is desired by the user and which the
program manager is attempting to obtain.

Threshold. The minimum acceptable value that, in the user’s judgment, is
necessary to satisfy the need.




                                     14
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Deputy Chief of Naval Operations (Warfare, Requirements, and Programs)
  Commander, Naval Sea Systems Command
       Program Executive Officer for Expeditionary Warfare
               Program Manager, Evolved SEASPARROW Missile
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform



                                          15
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          16
Department of the Navy Comments




                    17
18
Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing of the Department of Defense prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report are
listed below.

Mary L. Ugone
John E. Meling
Douglas P. Neville
Susan J. Lippolis
Barbara S. Wright
Bradley M. Heller
Kevin B. Palmer
Jacqueline N. Pugh
Jenshel D. Marshall
